WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-5314
Jared Stubblefield v. Dorothy Brown, et al.,

(Petitioner)

(Respondents)

I do not intend to file a response to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
[]

Please enter my appearance as Counsel of Record for all respondents.

[x]
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondents:
Dorothy Brown, Clerk of the Circuit Court of Cook County and Kimberly M. Foxx, State’s
Attorney of Cook County
I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain
if your name has changed from when you were admitted):
Signature s/Paul A. Castiglione
Date:

September 24, 2020

(Type or print) Name Paul A. Castiglione
[X] Mr.
[] Mrs.
[] Mrs.

[] Miss

Firm State's Attorney's Office of Cook County, Illinois, Civil Actions Bureau
Address 500 Richard J. Daley Center
City & State Chicago, Illinois

Zip

60602

Phone (312) 603-2350
E-mail paul.castiglione@cookcountyil.gov
A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate
below the name(s) of the recipient(s) of a copy of this form:
cc:

Mr. Jared Stubblefield
6011 South Damen Avenue
Chicago, Illinois 60636

